                                                    2

Participants’ Earning Capacity

Figure 1 below shows the changes in earnings for all participants for the 1st and 2nd years after
termination. As indicated, overall there were only slight changes in the number of participants within the
wage ranges. The number of participants with no reported wages increased by 1,786 participants, a
10 percent increase over participants with no wages during the 1st year after termination, and a 2.3
percent increase for the participant universe.




                Figure 1


In the 1st year after termination, 4,580 participants earned $20,000 or more. In the second year, the
number rose to 6,575, an increase of 44 percent for the two wage categories -- $20,001 - $30,000
and over $30,000. However, when compared to the overall AFDC population (76,246 participants),
the change was only 2.6 percent.

The following Table A shows the movement of specific participants from one earnings range to another.
The shaded boxes indicate participants whose reported earnings range did not change between the 1st
and 2nd years after termination. Out of the 76,246 participants in the universe, 30,857 participants’ (40
percent) earnings showed no significant increase or decrease between the two periods while 31 percent
saw an increase in earnings (above shaded area) and 29 percent saw a decrease in earnings (below
shaded area). For example, 3,985 participants had wages of $1- $2,500 in the 1st year after
termination but had no wages in the 2nd year after termination. Conversely, 3,256 participants had no
wages in the 1st year, but had wages of $1- $2,500 in the 2nd year after termination.
                                                                                   3

                                                                          Table A
                                                       Changes in Participant Earnings Between the
                                                            1st and 2nd Year After Termination
                                                                  Earnings for 2nd YR After Termination
                                     Earnings     No    $1 - $2,501 $5,001 $7,501 $10,001 $20,001                      Over       1st YR.
                                     Ranges      Wages 2,500 -5,000 -7,500 -10,000 -20,000 -30,000                     $30k       Totals
 Earnings 1st YR After Termination




                                     No Wages 10,304        3,256     1,738     1,109       189       616        149          0    17,361
                                     $1 -
                                     2,500     3,985        4,175    2,151     1,180       617      1,263         82          0 13,453
                                     2,501-
                                     5,000     1,816        1,971    3,000       679     1,165      1,313       107           0 10,051
                                     5,001-
                                     7,500       854        1,128      913     1,115       620      1,832          0        16     6,478
                                     7,501-
                                     10,000      741        1,066      569     1,184     1,021      1,688       286         16     6,571
                                     10,001-
                                     20,000    1,010          226    1,952     1,027     1,623      9,202     2,548        164 17,752
                                     20,001-
                                     30,000      444            0         0        0          0       645     1,600        842     3,531
                                     Over
                                     $30k          0            0         0      142          0       142       325        440     1,049
                                     2nd YR
                                     Totals      19,154 11,822 10,323          6,436     5,235    16,701      5,097      1,478 76,246

In our previous audit report, we identified 55,683 participants who received JTPA-funded
training/services. We attempted to analyze the impact that the different levels of program activity had
on participants’ earnings capacity. Tables B.1 through B.3 below show the changes in the earnings for
participants in the following three groups between the 1st and 2nd years.

                                        !       Occupational Training, which included classroom training, on-the-job training, and
                                                work experience, and was job or field-specific. (Table B.1 -- 32,238 participants)

                                        !       Nonoccupational Training, which included training such as Basic Skills or GED
                                                preparation, life skills, computer literacy training (nonspecific), and other similar
                                                activities to prepare participants for employment. (Table B.2 -- 9,466 participants)

                                        !       Objective Assessment Only, where no services were provided to the participant
                                                other than the assessment activity. (Table B.3 -- 13,979 participants)
                                      4

                                  Table B.1
             Wages Earned the 1st and 2nd Year Following Program
                Termination for Participants Who Received
                JTPA-Funded Occupational Skills Training
  Wage Range              1st              2nd          Increase/       %
                         Year             Year         (Decrease)    Inc./Dec.

No wages                    6,252           7,660           1,408       22.5%

$1 - 2,500                  3,520           5,190           1,670       47.4%

$2,501 - 5,000              3,647           3,154            (493)     -13.5%

$5,001 - 7,500              2,733           2,053            (680)     -24.9%

$7,501 - 10,000             3,097           1,819          (1,278)     -41.3%
$10,001- 20,000             9,542           7,921          (1,621)     -17.0%

$20,001 - 30,000            2,623           3,059             436       16.6%

Over $30,000                    824         1,382             558       67.7%

 Total                     32,238          32,238               0




                                  Table B.2
             Wages Earned the 1st and 2nd Year Following Program
                 Termination for Participants Who Received
               JTPA-Funded Nonoccupational Skills Training

  Wage Range              1st              2nd          Increase/       %
                         Year             Year         (Decrease)    Inc./Dec.
No wages                    2,392           3,154             762       31.9%

$1 - 2,500                  1,834           1,086            (748)     -40.8%

$2,501 - 5,000              1,083           1,401             318       29.4%

$5,001 - 7,500                  944              864          (80)      -8.5%

$7,501 - 10,000                 848         1,041             193       22.8%

$10,001- 20,000             2,169           1,435            (734)     -33.8%
$20,001 - 30,000                155              447          292     188.4%

Over $30,000                     41               38           (3)      -7.3%

 Total                      9,466           9,466               0
                                   5


                              Table B.3
         Wages Earned the 1st and 2nd Year Following Program
            Termination for Participants Who Received
              JTPA-Funded Objective Assessment Only
  Wage Range           1st              2nd          Increase/      %
                      Year             Year         (Decrease    Inc./Dec.
                                                         )

No wages                 4,439           2,976         (1,463)     -33.0%

$1 - 2,500               3,482           3,238           (244)      -7.0%

$2,501 - 5,000           2,176           2,885            709       32.6%

$5,001 - 7,500           1,154           1,312            158       13.7%

$7,501 - 10,000              906              516        (390)     -43.0%
$10,001- 20,000          1,522           2,653          1,131       74.3%

$20,001 - 30,000             158              383         225     142.4%

Over $30,000                 142               16        (126)     -88.7%

 Total                  13,979          13,979                        N/A
                                                   6




Figure 2 shows the changes in earnings between the two periods ; i.e., it compares the results of
Tables B.1, B.2, and B.3. Solid lines represent the 1st year; dashed lines, the 2nd year. As shown, the
trends established in the first year continued in the second year. Participants receiving occupational
skills training continued to earn more than those who received nonoccupational training or objective
assessment only.

However, Figure 2 and the table below also show that the earnings gap between participants who
received occupational skills training and those who received only objective assessment decreased in the
2nd year. For example, the following table shows that in the 1st year the gap between the two groups
was 27.3 percent (59.7 compared to 87). In the 2nd year, the gap narrowed to 16.6 percent (61.6 to
78.2).


                                                       Percent of Participants Whose Earnings
                                   Year                     are Below the Earnings Level
                                   After
 Participant Activity           Termination       $30,000        $20,000       $10,000        $7,500

 Occupational Training            1st Year             97.4         89.3          59.7          50.1




       Figure 2
                                                  7

                                 2nd Year
                                                      95.7        86.2          61.6          56.0
 Assessment Only                 1st Year             99.0        97.9          87.0          80.5

                                 2nd Year             99.9        97.2          78.2          74.5



Participants’ Attachment to The Labor Market

As we reported in our first report, the ultimate goal of the Welfare-to-Work program is to move
individuals into and keep individuals in lasting unsubsidized employment. To evaluate the JTPA
Title II-A program’s success in accomplishing this same goal for AFDC recipients, we analyzed the
number of different employers the AFDC recipients had wages with in the 1st and 2nd years following
JTPA program termination.

Table C.1 on the following page shows the overall changes in the numbers of employers participants
had during the 2nd year -- whether they had wages in one, two, three, or all four quarters -- and
calculates the increase or decrease. As indicated in Table C.1, there was a 12 percent increase in the
number of participants who had wages in the 2nd year, a significant net decrease in the number of
participants who had wages with only one or two employers, and a significant increase in the number
of participants with wages with four or more employers.
                                                         8



                                              Table C.1
                        Number of Employers Participants Worked for in the
                         1st Year versus the 2nd Year Following Termination
                                    1st Year                    2nd Year
               Number of                                                             Percent
               Employers         No.         %               No.         %           Change

                    1          30,107       51.1             20,149        30.6        -33.1%

                    2          13,225       22.5             15,425        23.4         16.6%

                    3          9,489         16.1            11,686        17.7         23.2%

                    4          4,125         7.0              6,946        10.5         68.4%
                    5            480           0.8            4,222           6.4      779.6%

                    6+         1,452           2.5            7,514        11.4        417.5%

               Total           58,878      100.0             65,942      100.0          12.0%



Table C.2 analyzes those participants who had wages in all four quarters of the evaluation periods ( 1st
and 2nd year).



                                          Table C.2
                      Number of Employers for Participants Who Had
                    Wages in all Four Quarters During the 1st and 2nd Years

                  Employers             1st Year                   2nd Year

                         No.        No.          %             No.         %        Change
                         1        13,637        45.7           4,096       21.8     -70.0%

                         2         6,048        20.2           4,079       21.7     -32.6%

                         3         5,511        18.4           3,985       21.2     -27.7%

                         4         3,070        10.3           2,125       11.3     -30.8%

                         5          189            0.6         1,189          6.3   529.1%

                         6+        1,420           4.8         3,324       17.7     134.1%
                  Total           29,875       100.0          18,798     100.0      -37.1%
                                                    9

As Table C.2 shows, overall, 37 percent fewer participants had earnings in all four quarters.
Furthermore, for those participants with earnings in all four quarters, there was a dramatic decrease in
the number of participants who worked for only one employer during the 2nd year after termination and
a significant increase in the number of participants who worked for more than four employers.

The 2nd year data show a trend developing where participants have detached themselves from their
initial employers and may be having difficulty maintaining a relationship with an employer.

                                   **************************

This letter report is provided for information purposes. No response is required.

If you have any questions regarding this letter report, please call John Riggs, Regional Inspector
General for Audit, Dallas, at 214-767-6980.
